No.

IN THE

SUPREME COURT OF THE UNITED STATES

i-eah(^r^ Tehhi^h^s _ PETITIONER
(Your Name)

vs.

&€ck ^ kitb-^6^-RESPONDENT^)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:

^Petitioner has previously been granted leave to proceed in forma pauperis in

the following court(s):

i^i^ir^ Ccii^ of A^i^f/2^ (^LKJ^
D Petitioner has not previously been granted leave to proceed in forma

pauperis in any other court.

Petitioner's affidavit or declaration in support of this motion is attached hereto.
IXPetitioner's affidavit or declaration is not attached because the court below
appdSnted counsel in the current proceeding, and:

^..The appointment was made under .the following provision of law:

J^ copy of the order of appointment is appended.
/^/^^ c.
(Signature)

